SEMIANNUAL REPORT TO THE CONGRESS

    APRIL 1, 2006 – SEPTEMBER 30, 2006

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                              October 30, 2006




MEMORANDUM

TO:            Dana Gioia
               Chairman

FROM:                 Daniel L. Shaw
               Inspector General

SUBJECT:       Semiannual Report to the Congress: April 1, 2006 – September 30, 2006


The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General (OIG)
for the six-month periods ending each March 31 and September 30. I am pleased to enclose the report
for the period from April 1, 2006 to September 30, 2006.

The Inspector General’s report covers audits, evaluations, investigations and other reviews conducted by
the OIG as well as our review of the OMB Circular A-133 audits conducted by independent auditors. The
report also indicates the status of management decisions whether to implement or not to implement
recommendations made by the OIG. The President’s Council on Integrity and Efficiency developed the
reporting formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in the
preparation of the management report. The due date for submission of both reports is November 30,
2006.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                  TABLE OF CONTENTS

                                                                                 PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                    1

OFFICE OF INSPECTOR GENERAL                                                        1

SUMMARY OF WORK COMPLETED BY THE OIG                                               2

    Audits/Reviews                                                                 2
    Audit Resolution                                                               2
    Investigations                                                                 2
    Indirect Cost Rate Negotiations                                                2
    Review of Legislation, Rules, Regulations and Other Issuances                  3
    Technical Assistance                                                           3
    Web Site                                                                       3
    Other Activities                                                               3
    Strategic Plan & Five-Year Audit Plan                                          3

SECTIONS OF REPORT                                                                 4

    SECTION 1 - Significant Problems, Abuses and Deficiencies                      4

    SECTION 2 - Recommendations for Corrective Action                              4

    SECTION 3 - Recommendations in Previous Reports on Which
                  Corrective Action Has Not Been Implemented                       4

    SECTION 4 - Matters Referred to Prosecuting Authorities                        4

    SECTION 5 - Denials of Access to Records                                       4

    SECTION 6 - Listing of Reports Issued                                          5

    SECTION 7 - Listing of Particularly Significant Reports                        6

    SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Questioned Costs                         6

    SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Recommendations that Funds be
                  Put to Better Use by Management                                  6

    SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                  Period for Which No Management Decision Has Been Made by
                  the End of the Reporting Period                                  6
                                    TABLE OF CONTENTS

                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period           6

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       6

TABLE I - Inspector General Issued Reports With Questioned Costs                            7

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          8

Definitions of Terms Used                                                           Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Since its founding by the U.S. Congress in 1965, the National Endowment for the Arts (NEA) has offered
assistance to a wide range of non-profit organizations and individuals that carry out arts programming.
The NEA supports exemplary projects in all the artistic disciplines. Grants are awarded for specific
projects rather than for general operating or seasonal support. Most NEA grants must be matched dollar
for dollar with non-federal funds. During FY 2006, NEA received a net appropriation of $124.406 million,
which includes both the rescission required by the Department of the Interior, Environment, and Related
Agencies Appropriations Act and the government-wide across-the-board rescission required by the
Department of Defense Appropriations Act. The Agency has requested $124.412 million for FY 2007,
which would support an annualized FTE level estimated at 158. In May 2006, the U.S. House of
Representatives approved $129.412 million for FY 2007, an increase of $5 million above the President’s
request. In June 2006, the Senate Appropriation’s Committee provided $124.4 million, the same level as
enacted in FY 2006. No further action was taken on the Agency’s appropriation prior to the
Congressional recess. Therefore, as provided in the FY 2007 Defense Appropriations Bill, the Agency is
operating under a continuing resolution for the period October 1 through November 17, 2006.


OFFICE OF INSPECTOR GENERAL
On October 18, 1988, the President signed Public Law 100-504, the Inspector General Act Amendments
of 1988. This law amended the Inspector General Act of 1978, Public Law 95-452, and required the
establishment of independent Offices of Inspector General (OIG) at several designated Federal entities
and establishments, including the National Endowment for the Arts. The Inspector General is appointed
by and serves under the general supervision of the NEA's Chairman. The mission of the OIG is to:

       - Conduct and supervise independent and objective audits and investigations relating to NEA
         programs and operations;

       - Promote economy, effectiveness and efficiency within the NEA;

       - Prevent and detect fraud, waste and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in Agency
         programs and operations.

This semiannual report summarizes the OIG's major activities, initiatives and results for the six-month
period ending September 30, 2006. During this period, the OIG consisted of two auditors and one
program analyst. There is no investigator on the staff. In order to provide a reactive investigative
capability, we have signed a Memorandum of Understanding with the Inspector General of the General
Services Administration (GSA) whereby the GSA's OIG agrees to provide investigative coverage for us
on a reimbursable basis as needed. (No investigative coverage from GSA was needed during the recent
six-month period.) We have also signed a Memorandum of Understanding with the NEA's Office of
General Counsel (OGC) that details procedures to be used for providing the OIG with legal services. An
OGC staff member has been assigned to provide such services on an as-needed basis.
                                                                                                        1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending September 30, 2006, the OIG conducted the following audits,
reviews, investigations and other activities.

Audits/Reviews

During the recent semiannual period, the OIG issued 19 reports. Of those, 15 reports were based on
audits/reviews performed by OIG personnel and four reports were the result of OIG desk reviews of audit
reports relating to grantee organizations that were required to have audits performed by independent
auditors. Overall, our reports contained 34 recommendations, 26 of which were related to systems
deficiencies at grantee organizations, while the remaining eight recommendations related to systems
deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were seven reports awaiting a management decision to
allow or disallow questioned costs. During the period, none of the newly issued reports identified any
questioned costs or any potential refunds.

Management decisions were made on five of the seven open reports to allow questioned costs of
$755,581 and to disallow costs of $20,142. As a result of the five decisions, a refund of $45,817 was
received. Therefore, at the end of the period, two reports remained outstanding with questioned costs of
$425,449 and potential refunds of $84,318. (See both Section 10 on page 6 and Table I.)

Investigations

The OIG opened one new allegation case and closed the same case during the recent six-month period.
There were no prior open cases to start the period. No criminal investigations were performed during
the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf of all
Federal agencies in approving rates with the organization. During this period, the OIG negotiated six
indirect cost rate agreements with NEA grantee organizations.

The OIG also makes use of an Indirect Cost Guide. The Guide answers such questions as: What are
direct or indirect costs, what is an indirect cost rate, and does an entity need an indirect cost rate? A
copy of the Guide can be found on NEA’s web site at www.arts.gov/about/OIG/IndirectCost.html.


                                                                                                            2
Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency Administrative Directives, and other government publications/reports.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133, “Audits
of States, Local Governments, and Non-Profit Organizations," explaining alternative methods of
accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with their
grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist and
inform NEA grantees and Agency employees. The site includes the Inspectors General Vision
Statement, our two Financial Management Guides, our Indirect Cost Guide, past Semiannual Reports
to the Congress, the OIG Strategic Plan, contact information about OIG staff, how to report wrongful
acts, information about alternative methods of funding, and answers to frequently asked questions.

Other Activities

During this period, the OIG took part in the activities of the Executive Council on Integrity and Efficiency
(ECIE), and allocated resources for responding to information requests from and for the Congress and
other agencies. The OIG also provided oversight of the Agency’s independent auditors as they work
towards completing the Agency’s fourth annual financial statement audit for the fiscal year ending
September 30, 2006.

Based on the successful implementation of the “Financial Management System & Compliance Evaluation
Program of NEA grantees,” the OIG determined to continue this program as it is taken to other areas
around the country. The objective of this evaluation is to determine whether the auditee’s financial
management system and recordkeeping comply with the requirements established by the Office of
Management and Budget and the NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations.

Strategic Plan & Five-Year Audit Plan

We have issued our Strategic Plan & Five-Year Audit Plan for the Years 2007 – 2011. The planning
methodology that we have adopted is built around the concepts of issues and issue areas. The issue
areas are broad categories of prime importance: they highlight the priorities of our customers - Agency
management, the Congress and the American people. The individual issues, expressed as questions,
represent an assessment of the most significant concerns facing the NEA. The methodology also
includes the formulation of annual audit work plans.
                                                                                                      3
                                    SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included according
to Section 5(a) of the Act. Table I shows Inspector General issued reports with questioned costs and
Table II also shows that there were no Inspector General issued reports with recommendations that
funds be put to better use.

SECTION 1 – Significant Problems, Abuses                SECTION 2 – Recommendations for
and Deficiencies                                        Corrective Action

Audits and other reviews conducted by OIG               To assist grantees in correcting or avoiding the
personnel during the current and prior periods          deficiencies identified in Section 1, the OIG
have disclosed a few instances of deficient             has prepared two “Financial Management
financial management practices in some                  Guides,” one for non-profit organizations and
organizations that received NEA grants.                 the other for state and local governments. The
Among these were:                                       guides are not offered as complete manuals of
                                                        procedures; rather, they are intended to
•   Reported grant project costs did not agree          provide practical information on what is
    with the accounting records, i.e., financial        expected from grantees in terms of fiscal
    status reports were not prepared directly           accountability. The guides are available on
    from the general ledger or subsidiary               NEA’s web site at
    ledgers or from worksheets reconciled to            www.arts.gov/about/OIG/Contents.html
    the accounts;
                                                        The guides discuss accountability standards in
•   Personnel costs charged to grant projects           the areas of financial management, internal
    were not supported by adequate                      controls, audit and reporting. The guides also
    documentation, i.e., personnel activity             contain sections on unallowable costs and
    reports were not maintained to support              shortcomings to avoid. In addition, the guides
    allocations of personnel costs to NEA               include short lists of useful references and
    projects;                                           some sample documentation forms.

•   The amount allocated to grant projects for          SECTION 3 – Recommendations in
    common (indirect) costs which benefited all         Previous Reports on Which Corrective
    projects and activities of the organization         Action Has Not Been Implemented
    was not supported by adequate
    documentation; and                                  There were no significant recommendations in
                                                        previous reports on which corrective action has
•   Grantees needed to improve internal                 not been implemented.
    controls, such as ensuring a proper
    separation of duties to safeguard                   SECTION 4 – Matters Referred to
    resources and including procedures for              Prosecuting Authorities
    comparing actual costs with the budget.
                                                        No matters were referred to prosecuting
                                                        authorities during this reporting period.

                                                        SECTION 5 – Denials of Access to Records

                                                        No denials of access to records occurred
                                                        during this reporting period.
                                                                                                         4
                                           SECTION 6 – Listing of Reports Issued

REPORT                                                                                                                                                             DATE OF
NUMBER                                                               TITLE                                                                                         REPORT


                                                    Oversight Audit Agency Review Reports

OAA-06-02   The Metropolitan Museum of Art............................................................................................................ 04/12/2006
OAA-06-03   State of South Dakota........................................................................................................................... 05/11/2006
OAA-06-04   Kansas Arts Commission ...................................................................................................................... 08/31/2006
OAA-06-05   Idaho Commission on the Arts............................................................................................................... 09/01/2006


                                                             Limited Scope Audit Reports

LS-06-03     Delaware Division of the Arts ............................................................................................................... 07/17/2006


                                 Financial Management System & Compliance Evaluation Reports

SCE-06-08    The Museum of Fine Arts, Houston.....................................................................................................                 05/15/2006
SCE-06-09    Austin Film Society.............................................................................................................................      05/15/2006
SCE-06-10    National Association of Latino Arts and Culture .....................................................................................                 05/15/2006
SCE-06-11    Esperanza Peace and Justice Center...................................................................................................                 05/16/2006
SCE-06-12    Texas Folklife Resources ....................................................................................................................         05/23/2006
SCE-06-13    FotoFest, Inc. ....................................................................................................................................   05/23/2006
SCE-06-14    Houston Grand Opera Association, Inc.................................................................................................                 05/31/2006
SCE-06-15    DiverseWorks, Inc. .............................................................................................................................      06/16/2006
SCE-06-16    Dance/USA .......................................................................................................................................     06/21/2006
SCE-06-17    Project Row Houses...........................................................................................................................         07/06/2006
SCE-06-18    Alternate ROOTS, Inc. .......................................................................................................................         08/31/2006
SCE-06-19    Independent Media Artists of Georgia, Etc., Inc. ...................................................................................                  09/07/2006
SCE-06-20    Art Papers, Inc...................................................................................................................................    09/25/2006


                                                                 Special Review Report

R-06-02      FY 2006 Evaluation of NEA’s Compliance with FISMA........................................................................... 09/21/2006




                                                     TOTAL REPORTS – 19
5
SECTION 7 – Listing of Particularly                2. SCE-06-04 – From the Top, Inc. – Issued
Significant Reports                                   1/31/06

There were no particularly significant reports     Recommendation
during the reporting period.
                                                   Grantee should provide documentation to
SECTION 8 – Statistical Tables Showing             support the questioned salary and fringe
Total Number of Audit Reports and the              benefit costs. If matching requirements are
Dollar Value of Questioned Costs                   not met based on disallowance of grant costs,
                                                   a refund (of up to $21,318) will be required.
Table I of this report presents the statistical
information showing the total number of audit      Reason No Management Decision Was
reports and the total dollar value of questioned   Made
costs.
                                                   Grantee response was received and
SECTION 9 – Statistical Tables Showing             additional documentation was requested.
Total Number of Audit Reports and the              Grantee is a small organization and the
Dollar Value of Recommendations that               official that we are working with is on
Funds be Put to Better Use by Management           extended leave so it may take a couple of
                                                   more months before we receive a response
As shown on Table II, there were no audit          and then evaluate it. A management decision
reports with recommendations that funds be         should be made by 3/31/07.
put to better use by management.
                                                   SECTION 11 – Significant Revised
SECTION 10 – Audit Reports Issued Before           Management Decisions Made During the
the Commencement of the Reporting Period           Period
for Which No Management Decision Has
Been Made by the End of the Reporting              No significant revised management decisions
Period                                             were made during the reporting period.

1. SCE-06-01 – Video Machete – Issued              SECTION 12 – Significant Management
   11/9/05                                         Decisions With Which the Inspector
                                                   General Disagrees
Recommendation
                                                   There were no significant management
Grantee should provide specific expense            decisions that the Inspector General
documentation on allocable costs for Grant         disagreed with during the reporting period.
Numbers 03-3400-1119 and 03-5100-8188, or
refund the $63,000 share of those grants.

Reason No Management Decision Was
Made

Grantee responded to both of the grants and
additional information was requested and
received on several different dates. We are in
the process of evaluating the latest
submission. A management decision should
be finalized by 12/31/06.
                                                                                                   6
                                                        TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                        QUESTIONED UNSUPPORTED                     POTENTIAL
                                                        NUMBER              COSTS                COSTS              REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                                7              1,201,172          (1,201,172)             461,903


  B. Which were issued during the reporting
      period                                                 0                        0                    (0)                  0


      Subtotals (A + B)                                      7              1,201,172          (1,201,172)             461,903


  C. For which a management decision was
      made during the reporting period         2/            5                775,723            (775,723)             377,585


        (i)      Dollar value of disallowed costs            2                  20,142            (20,142)               45,817


        (ii)     Dollar value of costs not
                 disallowed                                  5                755,581            (755,581)             331,768


  D. For which no management decision has
      been made by the end of the reporting
      period                                                 2                425,449            (425,449)               84,318


      Reports for which no management
      decision was made within six months of
      issuance                                               2                425,449            (425,449)               84,318




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is reduced
   significantly as a result of the audit followup process, which includes examination of documentation submitted by the grantee.


2/ Includes two grantees that had both costs disallowed (i) and costs not disallowed (ii) by management.

                                                                                                                                    7
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

        -   based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                     8
                                                                                   APPENDIX A

                            DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                        A cost that the Office of Inspector General (OIG) questioned
                                       because of alleged violation with a provision of a law,
                                       regulation, contract, or other agreement or document
                                       governing the expenditure of funds; such cost is not
                                       supported by adequate documentation; or the expenditure of
                                       funds for the intended purpose is unnecessary or
                                       unreasonable.

Unsupported Cost                       A cost which the OIG questioned because the cost was not
                                       supported by adequate documentation at the time of the
                                       audit.

Disallowed Cost                        A questioned cost that management has sustained or
                                       agreed should not be charged to the NEA grant or
                                       cooperative agreement.

Funds Be Put To Better Use             A recommendation made by the OIG that funds could be
                                       used more efficiently if management took actions to
                                       implement and complete the recommendation.

Management Decision                    Management's evaluation of the findings and
                                       recommendations contained in the audit report and the
                                       issuance of management’s final decision, including actions
                                       to be taken. Interim decisions and actions are not
                                       considered final management decisions for the purpose of
                                       the tables in this report.

Final Action                           The completion of all actions that management has
                                       concluded in its management decision with respect to audit
                                       findings and recommendations. If management concluded
                                       that no actions were necessary, final action occurs when a
                                       management decision was made.
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs,
should contact the OIG immediately. A complaint/referral may be made by visiting the OIG
office, calling the OIG at 202-682-5402, emailing at oig@arts.endow.gov or writing to the
Office of Inspector General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC
20506.


When contacting the OIG, it will help if you have answers to the following questions:
   •   Who are the parties involved (names, addresses and phone numbers if possible);

   •   What is the suspected activity (specific facts of the wrongdoing);

   •   When and where did the wrongdoing occur;

   •   How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

   •   Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent, unless
the Inspector General determines that such disclosure is unavoidable during the course of
the investigation. You may remain anonymous, if you choose. Federal employees are
protected against reprisal for disclosing information to the Inspector General unless such
disclosure was knowingly false.
  CHAIRMAN’S SEMIANNUAL REPORT
         ON FINAL ACTION
  RESULTING FROM AUDIT REPORTS

April 1, 2006 through September 30, 2006


              Submitted
            November 2006
                             TABLE OF CONTENTS




INTRODUCTION                                                              1


REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS

  Section 1    Comments Relating to the Inspector General's Report        2

  Section 2    Management Report on Final Action on Audits with           3
               Disallowed Costs for the Six-Month Period Ending
               September 30, 2006

  Section 3    Management Report on Final Action on Audits with           3
               Recommendations to Put Funds to Better Use for
               the Six-Month Period Ending September 30, 2006

  Section 4    Audit Reports for Which a Management Decision Was          3
               Made Prior to October 1, 2005, but on Which Final Action
               Has Not Occurred

  Table A      Management Report on Final Action on Audits with           5
               Disallowed Costs for the Six-Month Period Ending
               September 30, 2006

  Table B      Management Report on Final Action on Audits with           6
               Recommendations to Put Funds to Better Use for the
               Six-Month Period Ending September 30, 2006
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, the status of disallowed costs, and final
actions taken during the corresponding period, including any comments deemed appropriate.
The agency head must transmit both reports to the Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
April 1, 2006 through September 30, 2006.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Reviews. As reported in the Inspector General’s Semiannual Report to the
             Congress, at the beginning of the reporting period there were seven reports
             awaiting a management decision to allow or disallow questioned costs. During
             the period, none of the newly issued reports identified any questioned costs or
             potential refunds. Management decisions were made on five of the seven open
             reports outstanding at the beginning of the period; the remaining two are
             discussed in Section 10 of the OIG’s report. Management continues to work with
             the remaining two auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             While the Inspector General’s report is not required to include information about
             audit reports for which management decisions have been made but final actions
             are pending, we think it useful to provide that information here. Currently, there
             are two such organizations in this situation, where a total of $462,964 in
             disallowed costs has been identified, with potential refunds of $498,611. Both
             organizations have agreed and are making repayments on an installment basis. As
             final actions occur, including receipt of required refunds, they will be reported in
             a subsequent Chairman’s Semiannual Report.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring its employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period the Grants
             & Contracts Office and the OIG continued to provide technical assistance and
             compliance evaluations for grantees.

             Web Site. The Arts Endowment has continued to enhance its “My Grant at a
             Glance” feature on the Agency Web site. In addition to previously reported
             capabilities, including tracking the status of payment requests online, grantees can
             now obtain historical reports of all their grants dating back to at least 1988 –
             which includes, among other information, the amount of the grant, the period of

                                               2
             support, and a brief project description. The Arts Endowment also continues to
             enhance the user-friendliness of its online grant application information and the
             electronic application submission process (through grants.gov, the government-
             wide grant application portal).

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, most notably the independent audit of the Agency’s
             financial statements for fiscal year 2006; this was the Agency’s fourth such audit,
             and resulted in a fourth “clean” opinion.

             B. Comments on OIG’s Sections 1 and 2

             OIG audit and evaluation reports on Arts Endowment awardees are based upon
             reviews conducted by the OIG itself or upon OIG analysis of audits completed by
             outside auditors. The outside audits may be performed by State audit agencies, by
             other Federal agencies (generally the agency providing the greatest amount of
             Federal funding to an organization also supported by the Arts Endowment), or by
             independent public accountants engaged by awardees.


Section 2.   Management Report on Final Action on Audits with Disallowed Costs for the
             Six-Month Period Ending September 30, 2006 (Section 8 of the OIG Report)

             Management decisions were made in resolving five of seven audits issued prior to
             this period (see Section 1.A.), which resulted in final actions on all five audits and
             the recovery of $45,817 during the period (see Table A).


Section 3.   Management Report on Final Action on Audits with
             Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending September 30, 2006 (Section 9 of the OIG report)

             There were no audits with recommendations to put funds to better use awaiting
             final action as of September 30, 2006 (see Table B).


Section 4.   Audit Reports for Which a Management Decision Was Made Prior to
             October 1, 2005, but on Which Final Action Has Not Occurred

             Two management decisions were made prior to October 1, 2005 on which final
             actions have not yet occurred. The first, LS-03-01: National Black Touring
             Circuit, Inc., was issued on June 12, 2003. On February 4, 2004, management
             requested a refund of $30,000 from the auditee. On March 12, 2004, the auditee
             agreed to an installment payment plan, with final payment due by March 31,
             2007. The auditee is current with payments, having returned $23,500 through
             September 30, 2006.

                                                3
The second decision concerned LS-04-05: Educational Broadcasting Corporation,
issued on August 27, 2004. Management requested a refund of $363,014
(representing the remaining portion of the unused $500,000 that had been
disbursed to the auditee since the grant was awarded). Management also
requested payment of $105,596.89 in accrued interest on the unused funds, plus a
final payment by August 31, 2007 for interest accrued during the repayment
period. On September 27, 2004, the auditee refunded the remaining portion of the
unused grant funds and agreed to an installment payment plan for the interest.
The auditee is current with payments, having returned both the unused grant
funds and $70,397.20 in interest through September 30, 2006.




                                 4
                                          TABLE A

               MANAGEMENT REPORT ON FINAL ACTION
                  ON AUDITS WITH DISALLOWED COSTS
         FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2006


                                                     # OF AUDIT DISALLOWED POTENTIAL
                        ITEM                          REPORTS      COSTS   REFUNDS

A.   Audit reports with management decisions
     on which final action had not been
     completed at the beginning of the reporting
     period.
                                                         2          $462,964   $498,611

B.   Audit reports on which management
     decisions were made during the period.

                                                         5            20,142     45,817

C.   Total audit reports pending final action
     during the period (A + B).
                                                         7           483,106    544,428

D.   Audit reports on which final action was
     taken during the period:



     1. Recoveries

       a. Collection & offsets                           2            20,142     45,817

       b. Property                                       0                0          0

       c. Other                                          3                0          0


     2. Write-offs                                       0                0          0


     3. Total (D1 + D2)                                 5             20,142     45,817


E.   Audit reports needing final action at the
     end of the period (C – D3).
                                                         2          $462,964   $498,611




                                                 5
                                          TABLE B

          MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
        WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
        FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2006

                                                                               FUNDS TO BE
                                                                  # OF AUDIT     PUT TO
                               ITEM                                REPORTS     BETTER USE


A.   Audit reports with management decisions on which final
     action had not been taken at the beginning of the
     reporting period.
                                                                      0            $0


B.   Audit reports on which management decisions were
     made during the period.
                                                                      0             0


C.   Total audit reports pending final action during the period
     (A + B).
                                                                      0             0


D.   Audit reports on which final action was taken during the
     period:


     1. Dollar value of recommendations
        implemented:

        a. Based on management action                                 0             0
        b. Based on proposed legislative action                       0             0


     2. Dollar value of recommendations not
        implemented
                                                                      0             0


     3. Total (D1 + D2)                                               0             0

E.   Audit reports needing final action at end of the period
     (C – D).
                                                                      0            $0




                                               6
